Department of Health and Human Services Office of Inspector General Washington, D C 202 01




May 1, 2012


TO:                                                                                          Peter Budetti
                                                                                             Deputy Administrator and Director
                                                                                             Center for Program Integrity
                                                                                             Centers for Medicare & Medicaid Services

                                                                                             Deborah Taylor
                                                                                             Director and Chief Financial Officer
                                                                                             Office of Financial Management
                                                                                             Centers for Medicare & Medicaid Services

FROM:                                                                                        /Brian P. Ritchie/
                                                                                             Assistant Inspector General for the
                                                                                               Centers for Medicare & Medicaid Audits

SUBJECT:                                                                                     Medicare Compliance Review of Barnes Jewish Hospital for Calendar Years 2009
                                                                                             and 2010 (A-07-11-05014) and Medicare Compliance Review of Indiana
                                                                                             University Health for the Period October 2008 Through September 2010
                                                                                             (A-05-11-00069)

Attached, for your information are advance copies of two of our final reports for hospital
compliance reviews. We will issue these reports to Barnes Jewish Hospital and Indiana
University Health within 5 business days.

These reports are part of a series of the Office of Inspector General’s hospital compliance
initiative, designed to review multiple issues concurrently at individual hospitals. These reviews
of Medicare payments to hospitals examine selected claims for inpatient and outpatient services.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov, or your staff may contact the
respective Regional Inspectors General for Audit Services:

Barnes Jewish Hospital
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII
(816) 426-3591, email – Patrick.Cogley@oig.hhs.gov
Page 2 – Peter Budetti and Deborah Taylor


Indiana University Health
Sheri L. Fulcher, Regional Inspector General for Audit Services, Region V
 (312) 353-2618, email – Sheri.Fulcher@oig.hhs.gov

Attachment

cc:    Daniel Converse
       Office of Strategic Operations and Regulatory Affairs
       Centers for Medicare & Medicaid Services
                                                              O FFICE OF A UDIT S ERVICES , R EGION V
                                                                  233 N ORTH M ICHIGAN , S UITE 1360
                                                                                 C HICAGO , IL 60601
May 7, 2012

Report Number: A-05-11-00069

Mr. Daniel F. Evans, Jr.
President and Chief Executive Officer
Indiana University Health
340 W. 10th St. 6th Floor
Indianapolis, IN 46206

Dear Mr. Evans:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of Indiana University Health
for the Period October 2008 Through September 2010. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.
Page 2 – Mr. Daniel F. Evans Jr.


If you have any questions or comments about this report, please do not hesitate to call me, or
contact Lynn Barker, Audit Manager, at (317) 226-7833, extension 21, or through email at
Lynn.Barker@oig.hhs.gov. Please refer to report number A-05-11-00069 in all correspondence.

                                           Sincerely,




                                           /Sheri L. Fulcher/
                                           Regional Inspector General
                                             for Audit Services


Enclosure

cc:

Marijane Armbruster, Executive Director Revenue Cycle,
Indiana University Health

Kimberly Carter, Revenue Cycle System Manager,
Indiana University Health

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
  INDIANA UNIVERSITY HEALTH
 FOR THE PERIOD OCTOBER 2008
   THROUGH SEPTEMBER 2010




                        Daniel R. Levinson
                         Inspector General

                            May 2012
                          A-05-11-00069
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Indiana University Health (the Hospital) is a 1,570-bed acute care hospital located in
Indianapolis, Indiana. Medicare paid the Hospital approximately $590 million for 36,060
inpatient and 354,177 outpatient claims for services provided to beneficiaries from October 2008
through September 2010 based on CMS’s National Claims History data.

Our audit covered $11.6 million in Medicare payments to the Hospital for 122 inpatient and 76
outpatient claims that we judgmentally selected as potentially at risk for billing errors. These
198 claims had dates of service from October 2008 through September 2010.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 163 of the 198 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 35 claims resulting in overpayments totaling $279,993
from October 2008 through September 2010. Specifically, 15 inpatient claims had billing errors,
resulting in overpayments totaling $109,198, and 20 outpatient claims had billing errors,
resulting in overpayments totaling $170,795. Overpayments occurred primarily because the
Hospital did not have adequate controls to prevent incorrect billing of Medicare claims.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $279,993, consisting of $109,198 in overpayments for
       15 incorrectly billed inpatient claims and $170,795 in overpayments for 20 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

INDIANA UNIVERSITY HEALTH’S COMMENTS

In written comments on our draft report, the Hospital concurred with our findings and
recommendations. The Hospital’s comments are included in their entirety as the Appendix.




                                               ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Indiana University Health ..............................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Inpatient Manufacturer Credits for Replaced Medical Devices ....................................5
          Inpatient Claims Billed With High Severity Level Diagnosis Related Group Codes ...5
          Inpatient Claims Paid in Excess of $150,000 ................................................................5

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................6
          Outpatient Manufacturer Credits for Replaced Medical Devices ..................................6
          Outpatient Claims Paid in Excess of Charges................................................................7
          Outpatient Claims Paid in Excess of $25,000 ................................................................7
          Outpatient Surgeries Billed With Units Greater Than One ...........................................7

      RECOMMENDATIONS .......................................................................................................8

      INDIANA UNIVERSITY HEALTH’S COMMENTS .........................................................8

APPENDIX

      INDIANA UNIVERSITY HEALTH’S COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 3 All services and items within an APC group are
comparable clinically and require comparable resources.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

    •   inpatient claims for short stays,

    •   inpatient claims for same-day discharges and readmissions,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient claims with payments greater than $150,000,

    •   inpatient hospital-acquired conditions and present on admission indicator reporting,

    •   inpatient transfers,

    •   outpatient claims with payments greater than $25,000,

    •   outpatient surgeries billed with units greater than one,

    •   inpatient and outpatient claims involving manufacturer credits for replaced medical
        devices, and

    •   inpatient and outpatient claims paid in excess of charges.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.


                                                   2
The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Indiana University Health

Indiana University Health (the Hospital) is a 1,570-bed acute care hospital located in
Indianapolis, Indiana. Medicare paid the Hospital approximately $590 million for 36,060
inpatient and 354,177 outpatient claims for services provided to beneficiaries from October 2008
through September 2010 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $11,623,239 in Medicare payments to the Hospital for 122 inpatient and 76
outpatient claims that we judgmentally selected as potentially at risk for billing errors. These
198 claims had dates of service from October 2008 through September 2010.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
did not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review enabled us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from May through November 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;



                                                 3
   •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for October 2008 through September 2010;

   •   obtained information on known credits for replacement cardiac medical devices from the
       device manufacturers for calendar years 2008, 2009, and 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 198 claims (122 inpatient and 76 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 163 of the 198 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 35 claims, resulting in overpayments totaling $279,993
from October 2008 through September 2010. Specifically, 15 inpatient claims had billing errors,
resulting in overpayments totaling $109,198, and 20 outpatient claims had billing errors,
resulting in overpayments totaling $170,795. Overpayments occurred primarily because the
Hospital did not have adequate controls to prevent incorrect billing of Medicare claims.

                                                4
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 15 of the 122 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $109,198.

Inpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 412.89) require reductions in the inpatient prospective payment
for the replacement of an implanted device if (1) the device is replaced without cost to the
provider, (2) the provider receives full credit for the cost of a device, or (3) the provider receives
a credit equal to 50 percent or more of the cost of the device.

The Manual, chapter 3, section 100.8, states: To correctly bill for a replacement device that was
provided with a credit … hospitals must use the combination of condition code 49 or 50, along
with value code “FD.” The condition code 49 or 50 will identify a replacement device while
value code FD will communicate to Medicare the amount of the credit, or cost reduction,
received by the hospital for the replaced device.

For 8 of the 18 sampled claims, the Hospital received a reportable medical device credit for a
replaced medical device from a manufacturer. However, the Hospital did not adjust its inpatient
claims with the proper value and condition codes to reduce payment as required. The Hospital
stated that these errors occurred because there were incomplete controls to identify, obtain, and
properly report credits from the manufacturers to ensure it submitted claims correctly. As a
result, the Hospital received overpayments of $59,649.

Inpatient Claims Billed With High Severity Level Diagnosis Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Additionally, the Manual, chapter
1, section 80.3.2.2, requires providers to complete claims accurately so that Medicare contractors
may process them correctly and promptly.

For 4 of the 20 sampled claims, the Hospital billed Medicare for incorrect DRG codes. The
Hospital stated that these errors occurred due to human error and because these claims were not
selected in their coding quality reviews. As a result, the Hospital received overpayments totaling
$42,183.

Inpatient Claims Paid in Excess of $150,000

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”




                                                  5
For 3 of the 20 sampled claims, the Hospital billed Medicare for incorrect DRG codes. The
Hospital stated that these errors occurred due to human error and the existing quality control
system that did not pick-up on the errors. As a result, the Hospital received overpayments
totaling $7,366.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 20 of 76 sampled outpatient claims that we
reviewed. These errors resulted in overpayments totaling $170,795.

Outpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

Prudent Buyer Principle

Under 42 CFR § 413.9, “All payments to providers of services must be based on the reasonable
cost of services ….” CMS’s Provider Reimbursement Manual (PRM), part 1, section 2102.1,
states, “Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed
what a prudent and cost conscious buyer pays for a given item or service. If costs are determined
to exceed the level that such buyers incur, in the absence of clear evidence that the higher costs
were unavoidable, the excess costs are not reimbursable under the program.” Section 2103 of
the PRM states that Medicare providers are expected to pursue free replacements or reduced
charges under warranties. Section 2103(C)(4) provides the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer
       for full or partial credits available under the terms of the warranty covering the
       replaced equipment. The credits or payments that could have been obtained must
       be reflected as a reduction of the cost of the equipment.

Billing Requirements for Medical Device Credits

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual explain how a
provider should report no-cost and reduced-cost devices under the OPPS. For services furnished
on or after January 1, 2007, CMS requires the provider to report the modifier “FB” and reduced
charges on a claim that includes a procedure code for the insertion of a replacement device if the
provider incurs no cost or receives full credit for the replaced device.




                                                   6
For 8 of the 27 sampled claims, the Hospital either received full credit for a replaced device but
did not report the required “FB” modifier or reduced charges on its claims (7 errors) or the
Hospital did not obtain a credit for a replaced device that was available under the terms of the
manufacturer’s warranty (1 error). The Hospital stated that these errors occurred because there
were incomplete controls to identify, obtain, and properly report credits from the manufacturers
to ensure that it submitted claims correctly. As a result, the Hospital received overpayments of
$98,104.

Outpatient Claims Paid in Excess of Charges

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. Additionally, the Manual,
chapter 1, section 80.3.2.2, requires providers to complete claims accurately so that Medicare
contractors may process them correctly and promptly.

For 5 of the 14 sampled claims, the Hospital submitted claims to Medicare with incorrect
HCPCS codes and/or incorrect number of units of HCPCS codes. The Hospital stated that these
errors occurred due to human error and the existing quality control system that did not pick-up
on the errors. As a result, the Hospital received overpayments totaling $46,814.

Outpatient Claims Paid in Excess of $25,000

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. Additionally, the Manual,
chapter 1, section 80.3.2.2, requires providers to complete claims accurately so that Medicare
contractors may process them correctly and promptly.

For 4 of the 10 sampled claims, the Hospital submitted claims to Medicare with incorrect
HCPCS codes. The Hospital stated that these errors occurred due to human error and the
existing quality control system that did not pick-up on the errors. As a result, the Hospital
received overpayments totaling $19,298.

Outpatient Surgeries Billed With Units Greater Than One

The Manual, chapter 1, section 80.3.2.2, requires providers to complete claims accurately so that
Medicare contractors may process them correctly and promptly. In addition, chapter 4, section
20.4, of the Manual states: “The definition of service units … is the number of times the service
or procedure being reported was performed.”

For 3 of the 25 sampled claims, the Hospital submitted claims to Medicare with incorrect
numbers of surgical units of service performed and/or incorrect HCPCS codes. The Hospital
stated that these errors occurred due to human error and the existing quality control system that
did not pick-up on the errors. As a result, the Hospital received overpayments totaling $6,579.




                                                 7
RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $279,993, consisting of $109,198 in overpayments for
       15 incorrectly billed inpatient claims and $170,795 in overpayments for 20 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

INDIANA UNIVERSITY HEALTH’S COMMENTS

In written comments on our draft report, the Hospital concurred with our findings and
recommendations. The Hospital’s comments are included in their entirety as the Appendix.




                                              8
APPENDIX




   1
                                                                                                         Page 1 of3


               APPENDIX: INDIANA UNIVERSITY HEALTH COMMENTS



III    Indiana University Health


March 19,2012

Sheri L. Fulcher
Regional Inspector General for Audit Services
US DHHS, Office ofInspector General
Office of Audit Services, Region V
233 North Michigan Avenue
Chicago, IL 60601


RE : Report Number A-05-11-00069

Dear Ms. Fulcher:

Indiana University Health (IUH) is in receipt of the draft report provided by the U. S. Department of
Health and Human Services, Office of Inspector General (OIG), entitled Medicare Compliance
Review of Indiana University Health for the Period October 2008 through September 2010. Please
accept the following comments in response to the draft report.

As noted in the draft report, a total of 198 Medicare claims with dates of service from October 2008
through September 2010 were selected for review by the OIG. The 198 claims, totaling
approximately $11,623,239 in Medicare payments, were made up of 122 inpatient and 76 outpatient
claims that were judgmentally selected as potentially at risk for billing errors based on prior OIG
audits, investigations and inspections of payments to hospitals.

Concurrence ofFindings:
The report indicates that IUH complied with Medicare billing requirements for 163 of the 198
inpatient and outpatient claim reviewed. However, billing errors were identified in 35 claims,
resulting in overpayments totaling $279,993 from October 2008 through September 2010.
Specifically, 15 inpatient claims had billing errors, resulting in overpayments totaling $109,198, and
20 outpatient claims had billing errors, resulting in overpayments totaling $170,795. IUH is in
general agreement with these findings and the identified overpayment amounts. Based on the age of
the claims reviewed within the scope of the audit, claims identified with payment adjustments will be
submitted to the Medicare Administrative Contractor (MAC) through the Voluntary Refund Process.

Inpatient and Outpatient Manufacturer Credits for Replaced Medical Devices:
For 8 of the 18 sampled inpatient claims and 7 of the 27 sampled outpatient claims, IUH received a
reportable medical device credit for a replaced medical device from a manufacturer. However, the
hospital did not adjust its inpatient and outpatient claims with the proper value and condition codes
or report the required "FB" modifier or reduce charges on its claims to reduce payment as required.
For 1 of the 27 sampled outpatient claims, IUH did not obtain a credit for a replaced device that was
available under the terms of the manufacturer's warranty. Historically, IUH has relied on the
notification of manufacturer device credits from the clinical staff responsible for applying for the

                                                                                          ll Pag e
                                                                                                         Page 2 of3




credits. However, as with other facilities around the country, ensuring that proper communication
regarding manufacturer device credits flows back into Revenue Cycle from the clinical areas has
been a challenge. As part of the internal control process, IUH will be contacting as many medical
device vendors that we can identify to obtain lists of warranty credits issued to our facilities on a
monthly basis. The lists will be confirmed with our clinical resource coordinators to ensure the credit
has been received. Once the credit has been received and communicated to the billing department,
the documentation will be used to file adjustment claims with the appropriate condition code or value
code and adjusted charges, as applicable.

In addition to our internal controls, IUH believes that true compliance can be achieved in this area
when requirements are placed on the medical device distributers and manufacturers to submit the
information regarding medical device credits to facilities. This information will allow providers to
facilitate accurate claim submission and will greatly reduce the high risks associated with
overpayments in this area.

Inpatient Claims Billed with High Severity Level Diagnosis Related Group Codes
For 4 of the 20 sampled claims, IUH billed Medicare for incorrect DRG codes. As with any process
that requires human assessment and intervention, errors can be made. IUH has a strong coding
quality and compliance program in place to prevent as many coding errors as possible. The claims
identified in this part of the review had not been under previous inspection through the course of the
quality review program.

Inpatient Claims Paid in Excess of $150,000
For 3 of the 20 sampled claims, the Hospital billed Medicare for incorrect DRG codes. As stated
above, the claims identified in this part of the review had not been under previous inspection through
the course of the quality review program.

Outpatient Claims Paid in Excess of Charges
For 5 of the 14 sampled claims, IUH submitted claims to Medicare with incorrect HCPCS codes and
or incorrect number of units of HCPCS codes. These errors were either caused by incorrect CPT
code assignment or incomplete billing corrections after an error was identified. Our billing
correction process has since been streamlined to ensure corrections are completed timely when
coding errors are identified. In addition, an internal coding quality audit will be initiated for review
of accounts where neurostimulator leads are placed. Education will be provided to the applicable
coding staff based on the outcomes of this audit.

Outpatient Claims Paid in Excess of $25,000
For 4 of the 10 sampled claims, the Hospital submitted claims to Medicare with incorrect HCPCS
codes. Based on our self-audit findings, an internal coding audit will be performed on accounts with
lead revisions. Based on the subsequent findings, targeted education will be given to the coders to
ensure proper code assignment.

Outpatient Surgeries Billed with Units Greater Than One
For 3 of the 25 sampled claims, the Hospital submitted claims to Medicare with incorrect numbers of
surgical units of service performed and/or incorrect HCPC codes. These errors were largely caused
by a pre-bill edit that was missing logic to identify all possible scenarios. The pre-bill edit has been
corrected and when claims hit this edit, a credentialed, certified coder will review them to review the
documentation and ensure the appropriateness of the multiple units and that accounts are corrected


                                                                                            21Page 

                                                                                                     Page 3 of3




prior to final bill. In addition the Charge Description Master will be reviewed to ensure that there is
no duplication of soft- and hard-coded procedures. This will prevent inadvertent duplicate CPT code
assignment to a bill.

Through this self-audit process, IUH has strengthened its internal controls to prevent future billing
errors. In addition to the extensive coding quality checks that are currently in place, IUH will
continue to perform targeted reviews on cases prone to coding errors which can lead to inappropriate
payments. As stated above, IUH will refund any identified overpayments to the MAC.

IUH is committed to compliant, ethical, and accurate billing and coding. By way of its internal
Compliance Program and Coding Quality Review Program, IUH will continue to work to identify
areas of risk and non-compliance as well as implement stronger controls and promptly resolve
identified deficiencies, especially as they relate to the areas audited by the OIG.

IUH appreciates the opportunity to provide comments related to this report. In addition, we would
like to thank the audit staff assigned to our facility for their professionalism and their patience.

If you need additional information or have any further questions, please contact me at (317) 962­
3191 or (317) 997-3018.


Respectfully,


 flLVr'n~/rnM; (2J! fA-
Kimberly Carter, MBA, RHIA
Revenue Cycle System Manager - Quality & Compliance
Indiana University Health


Cc:    Ryan Kitchell, Chief Financial Officer, Indiana University Health
       Michael Foye, Vice President, Revenue Cycle Services, Indiana University Health
       Marijane Armbruster, Executive Director, Clinical Operations/HIM, Indiana University Health
       Michael Jaimet, Deputy General Counsel, Indiana University Health




                                                                                           31 Pag e
